                " . " . - : . ..   , . .

                                    .,   ' ,. ,-
                                                   ,n. '




      IMPLEMENTATION OF THE STATE

     LEGALIZATION IMPACT ASSISTANCE

     GRANTS UNDER THE IMMIGRATION

     REFORM AND CONTROL ACT OF 1986


                          COMMONWEAL TH                    OF   MASSACHUSETTS




       t.RVICESO
                   ll.r




'0


      1t"":fQ



OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                                                            DECEMBER 1989
                          OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector Genera (OIG) is to promote the effciency, effective­
ness, and integrty of   progrs in the United States Deparent of Health and Human Ser­
vices (HS).    It does this by developing methods to detect and prevent fraud, waste , and
abuse. Created by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and curently infonned about programs or management problems and recommends
corrctive action. The  OIG perform its mission by conductig audits, investigations, and in­
spections with approximately 1, 300 staf strategically located around the countr.


                    OFFICE OF ANALYSIS AND INSPECTIONS


This report is produced by the Offce of Analysis and Inspections (OAI), one of the three
major offces within the OIG. The other two are the Offce of Audit and the Office of Inves­
tigations. Inspections ar conducted in accordance with professional standards developed by
OAI. These inspections ar tyically short-tenn studies designed to determe program effec­
tiveness, effciency, and vulnerabilty to fraud or abuse.

This study was conducted to determne the effectiveness of the Commonwealth of
Massachusetts ' implementation of State Legalization Impact Assistance Grants funds awarded
under the Imgrtion Refonn and Control Act of 1986.

The report was prepard under the diction of Don McLaughlin , the Regional Inspector
General of Region VII Office of Analysis and Inspections. Parcipating in this project were
the following people:

Kansas City                                   San Francisco
Hugh Owens, Project Leader                    Apryl Wiliams
Raymond Balandron
James Wolf

Headquarters                                  New York
Albert J. Nace                                Lucile M. Cop
Debra Robinson
Alicia Smith
.I




       IMPLEMENTATION OF THE STATE

      LEGALIZATION IMPACT ASSISTANCE

      GRANTS UNDER THE IMMIGRATION

     REFORM AND CONTROL ACT OF 1986

                        COMMONWEALTH          OF   MASSACHUSETTS




                                       Richard P. Kusserow
                                       INSPECTOR GENERAL




     OAI- 07-88-00447                                              DECEMBER 1989
                                    EXECUTIVE SUMMARY


    PURPOSE
    The purose of this inspection was to determe how effectively the Commonwealth of
    Massachusetts implemented the State Legalization Impact Assistance Grants (SLIAG)
    progr, to identiy potential problems early in the process, and to identify good practices
    which all States could shar The Commonwealth of Massachusetts is referred to as " State " in
    this report.



    BACKGROUND

    The SLIAG program was established under the Immgration Reform and Control Act (IRCA)
    of 1986 to reduce the fmancial burden of providing public assistance , public health assistance,
    and educational services to eligible legalized aliens. In Fiscal Year (FY) 1988, $928. 5 milion
    in program funds were allocated to States, and funds wil continue to be alocated through
    FY 1991. These funds also cover administrative costs for implementing SLIAG at the State
    and local levels. Payments are made for public assistance activities generally available to all
.   needy individuals and public health assistance services offered under the States ' public health
    programs. The payments also cover educational services designed to assist eligible legalized
    aliens to attain a satisfactory level of performance in school and to achieve English language
    proficiency and citizenship skils   necessar to become pennanent residents. The Family
    Support Administration (FSA) is responsible for administerig    the program.


    Because SLIAG was a new program, FSA realized that problems would surface early in its
    implementation. In addition to the normal difficulties encountered in creating new processes
    and procedures, FSA recognized that SLIAG would have unique problems. Some of these
    issues include the diversity of programs which SLIAG encompasses, cultura and language
    barers associated with the service population , maintaning confidentiality of information , and
    the extremely short time frames for the grt award process.



    METHODOLOGY

    In response to the anticipated diffculties with implementing SLIAG, FSA requested that the
    Office of Inspector General (OIG) conduct reviews in 10 States to determine the progress of
    States ' implementing this progrm. The FSA selected nine States and the Distrct of Co1 umbia
    because of the varety of programs they offered, the number of eligible legalized aliens in the
    population , or the amount of the grant award. The nine States ar Arizona, California,
    Colorado, Florida, llinois, Massachusetts, New York , Texas, and Washington.
Interviews based on strcturd discussion guides for each major program ara , as well as
documentation furished by FSA and State and local offcials, built the base of information for
this report. This report represents the review conducted in Massachusetts and reports on its
implementation of the SLIAG progr as of August 1988.

Both FSA and Massachusetts were commtted to identiying problems and developing
innovative and effective solutions for them. Immediately following our on-site visits, FSA
was given an outline of the State concerns identified in this report.


FINDING: Since 
 1987 FSA has held national conferences and issued information to
States on implementing the SLIAG program.

                   The FSA held several national conferences beginning in 1987 to share
                   infonnation with States on SLIAG legislation , the implications for States, the
                   application process, and the documentation of costs.

                   The FSA also provided States with " Question and Answer" issuances and
                   demographic data from the Immigration and Naturalization Service (INS).

FINDING: Massachusetts established a structure to identify organizational and program
needs, and to adapt existing resources for SLIAG purposes.

                   The heads of each deparment involved in implementing SLIAG programs held
                   meetings with the Office for Refugees and Immigrants, and have designated
                   specific persons for SLIAG implementation and admnistration. There       was a
                   good working relationship among all paricipating    agencies.


                   The State s Executive Order Number 257 prevents agencies from requesting and
                   disseminating information on citizenship status unless required by Federal
                   statute. Questions on citizenship status have been removed from all applications
                   for services and benefits. The State is moving to implement the SLIAG program
                   with these restrctions.




FINDING: Massachusetts also took steps to document expenditures and control
disbursements.

                   Massachusetts has recently implemented the Management Account Reporting
                   System. This system provides for a unifonn reporting capabilty and wil be
                   used by the Deparent of Education to document costs identifiable to specific
                   eligible legalized aliens. As par of this system , the Office for Refugees and
                   Immigrants can access the Deparent of Education s SLIAG account to
                   monitor distrbution of funds and identify any excess funds that may have
                   accumulated.
Neverteless, there were some fuds contrl vuerabilties.

FINDING: The FSA' definin of                                            public health assis­

                               agencies.
                                    publi assistle includs some
tance activies   whih creatd adinitratve an serve delivery problems for
Massachusetts    publi healh



FINDING: Conflicting interpretans oftl       term "publi      clue " and "permanently
residng under color of law hi caused unertntis       for alns as to wht serves they are
entiled to receive without fear of deportn.



FINDING: The FSA        appliatn reviw   process creatd a number of signifant         problems
for Massachusett. Also, the FSA' appliatn reviw       process interfered with the Stat'
abilit to plan for   serves.
             Delay in FSA issuing the implementig regulation resulted in the State
             inabilty to properly plan for SLIAG.



              Numerous policy misinterpretations and disagrments resulted beause FSA
              did not provide definitive wrttn instrctions to assist Massachusett in
              understading SLIAG application reuiements.

              The tie frames were too short for submittg the intial SLIAG application
              review and comment, and revisions of the application.

              The implementation of SLIAG-funde    progr was delayed because of a
              signcant delay in notiyig Massachusett  of the grt award.


              No formal appeals process exists ifprogrs   or costs ar   denied in   the first level
              review.

FINDING: At the tie of th inspection, Massachusett Iu not received formal guidlines
from FSA on determining and claing SUAG adinistratve costs, and Massachusetts
 had not developed methods for determining and documenting these costs.



FINDING: The Stat Deparents of Publi Welfare          and Public Health      and the Bureau of
Adult Educaton had not estalished methods to document costs for         servces and benefits
provided to indvidual eligible legalized aliens.

As mentioned earlier, FSA and Massachusett have alady initiated action on some of the

recommendations mad in ths report. Steps have ben taen by FSA to provide States with

more speifc, formal guidelines for identig and documentig actual program and

adstrative costs. However, adtional actions ar necessar in other aras on the par of
FSA and Massachusett.

RECOMMENDATION: The FSA should reconsir its positn to classify certain public
health servces as publk assistace an    nu
                                     appropri adjustments to this positon.
            Several programs admnistere by the Deparent of Public Health
            considere as public assistace for SUAG purses. This crates a burden on
            public health agencies who, for the fit tie, ar  reui
                                                                to identify individual
            eligible legalze alens.

RECOMMENDATION: The FSA and th INS should further clafy whl is meant by
 public chae" and ' 'prnuuumtly residng umkr color of law, " and widly disseminate
this informaton to alens who have raied concerns abut their residnt stas.


RECOMMENDATION: The FSA should mak its applkaton and grant award process
more orderly. Specifally, FSA should
            provide defiitive   wrttn instrctions       SLIAG application reuiments
                                                    on the


            reportg issues to
            process;
                                mi
            and establish a dialogue with Masachusett on SLIAG policy, compliance, and
                                         the confsion that occur in the intial application


            ensur that sufficient tie   is allott to the application process includig
            Massachusetts ' intial application, FSA' s review andfor      commnt,
            Massachusett ' consideration of FSA comments and negotiation of disputes, and
            its submission of the revise application for FSA approval;

            develop an appeals proess to use if progrs or costs associated with providing
            servces ar denied in the initial application process; and

            revise the grant award proess for approved applications so that the notice of
            grant awar reaches Massachusett prior to the begiing of the fiscal year.
RECOMMENDATION: The FSA should issue writtn guilines for determining and
claiming administratve costs. Also, Massachusetts shoul develop methods for determining
and documenting these costs.


RECOMMENDATION: The Sta Deparents of Publk Welfare and Public Healh and
the Bureau of AduU Educatn should develop a process or methodology to identify and
document costs for servces and benefits to indiviua eligible legalized alens.
COMMENTS

The FSA and Massachusett both commente on the     drt report The comments ar included
in Appendices B and C.   resptively.
The FSA generaly   agr    with our fidigs and reommendations. The    State. however, took
exception to many of the statements mad in the report Neverteless, both repo    having
taen a number of steps to improve implementation of SUAG. Where appropriate, we have
moded the report bas on their comments.
                                             .......................................................................
                              ...................................
                                           ............... ... .... ..........
                                                                    ......                        .... .....
                                                                               ........... .......................




                                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY


             I NTR 0 D UCTIO N                                                                                                                                  II........ II........ 1


             PU RPOSE                                                                                                                                         .... ......... ....... 1


             BACKG ROU ND ..................... ................... ......... ............ ......... .... ...... ....... ... 1


             M ETHO DOLOG Y ................ ..... .... .... ........ ... ...................118......                                                      II.................... 





MASSACHUSETTS' ORGANIZATIONAL STRUCTURE.............                                                                                                    .................. 3



FINDINGS AND RECOMMENDATIONS .................................................................. 4


             PU B LIC     ASSISTANCE . ........ ... ....... ....11................... ...lIlIa...e...... ...... II.......... ... 5


             PUBLIC HEALTH ASSISTANCE................................................                                                                                                            6



             ED U CA TI 0     No.. II II.. II II.. II".. II II.. II II.. II II IIII IIII.. II II.. II... II II.. II II.. II II.. II II.. II II.. II 11..8..... II... ".. tI"8.................   9


             CROSSCUTTING ISSUES ...............""..8..............11...........",,11....... a."I1.......... 1 0

APPEN DIX A. ...........1111........                                                          ...................... a. ....... ".8. .1111...                   .......... .... A - 1


APPEN DIX B ............................... ................................ .........                                                          ..11. ..11.   ... ... ..... .... B­


APPENDIX C................ ................................ .....                                 ...........11....... ..... .11..              .... ........... ..... .... C - 1

                                    INTRODUCTION




PURPOSE
The Famy Support Admstrtion (FSA) reueste that the Ofce of Inspetor General
(OIG) conduct an inspetion in nie States and the Distrct of Columbia to determe how
effectivenly the States implemente the State Legalzation Impact Assistace Grats (SLIAG)
progr awarde under the Imgrtion Reform and Control Act (ICA) of 1986. The
inspection included reviewing mehansms in place to identi these funds and determg
whether present or projecte policies and proedurs ader to FSA guidelies. The FSA also
was interested in identig potential problems early in tie process and any goo practices
which al States could shar.

Ths report presents the results of the inspetion perting to the Commonwealth of
Massachusetts, referred to as " State


BACKGROUND

Under IRCA , eligible legalze alens may apply for pennanent residency with a I- year
period after they are fIrt eligible (i.e., by the 31st month afr they receive temporar resident
status).

Ths new   population wi incrase the demad for State public assistace and public health
assistace servces signcantly. It wi also incras the demand for State educational
services as these new residents obta English language and civic skis    neeto become
  S. citizens.

To help States defray many of the costs of providig public assistace, public health
assistace, and educational servces to eligible legalize alens, IRCA authorize $1 bilion
each year from Fiscal Year (F) 1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalize aliens are ineligible
for federaly funded public assistace progrs such as Aid to Famies with Dependent
Childrn (AFC), foo staps, and Medcaid. The "Fedra offset" is the estiated cost
the Fedral Government of providig these servces or benefits to those few     legal    aliens
who ar eligible for them. In FY 1 988, the law alocate $928. mion to States.

To reeive SLIAG funds, States must apply to the FSA Division of State Legaltion
Assistace, which is responsible for approving applications and adisterig the program.
The application must be approved in tota for a State to reeive any SLIG funds. The FSA
also provides States with tehnical assistace   on policy   issues and on the method used to
determe costs and veri actual costs.

The basic reuiment for States to clai reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistace    progr
                                                                                   must
be the same ones avaiable to the gener public. States canot crate new program in these
areas speifcaly for eligible legalze alens. However, States may crate new or adtional
education progrs for eligible legalze alens. States may also clai reimbursement for
progr adstrtive and SLIAG           adstrtive     costs.

Reimburement for public assistace and public health assistace is limite only to the amount
of State and local funds expende for SLIAG-relate costs. The       maum SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalze
alen. Detennng progr adstrtive costs is mad in accordce with the fmal
regulation at 45 CP 402. 22.

The FSA is responsible for adsterig     the program Because SLIAG was a new program,
FSA  real     that problems would surace early in its implementation. In adtion to the
norm diculties encountere in cratig new processes and proedurs, FSA              reogn
that SLIAG would have unque problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultu and language barers assoiate with the
servce population, maitag       confdentialty of inormation , and the extrmely short time
fres   for the grant award process.


METHODOLOGY

The FSA selecte nie States and the Distrct of Columbia for the inspetion beause of the
varety of program offere the number of eligible legalize aliens in the population, or the
amount of the grt. The nie States ar Arna, Caorna, Colorado, Florida lllinois,
Massachusetts, New York, Texas, and Washigton. Ths report reviews Massachusetts
implementation of the SLIAG progr as of August 1988.

Pror to conductig the inspection , the OIG develope strctu discussion gudes for each
major program activity at the State and local levels. We held on-site discussions with
representatives frm the Offce for Refugees and Imgrts; Deparnt of Public Health;
Offce of Communities and Development; Deparnt of Education , including potential
providers; and Deparent of Public Welfar.

The visits were coordinate by sta frm the Ofce for Refugees and          Imgrts.Pror to
the visit, materials supplied by the Ofce for Refugees and Immgrts wer reviewed as well
as the application that was approved by FSA. Materials supplied by respondents were also
reviewed.
., ,;




                   MASSACHUSETTS' ORGANIZATIONAL STRUCTURE



                                 Imgrts
        The Offce for Refugees and              has ben designate as the single point of contact.
        Organzationaly, the Offce for     Imgrts
                                       Refugees  and           is in the Executive Ofce of Human
                                       Imgrts
        Servces. The Ofce for Refugees and       cert    alocate           percentages of its
        executive and fiscal sta salares to SLIAG adstttion,     in relation     tie
                                                                             to the     spent on
        SLIAG. Direct SLIAG    prgr              grt.
                                         sta ar fuly chared to the

        The Deparent of Public Health is alo   with the Executive Ofce of Hum Servces.
        Loal health servces ar adstere       by local boar   of heath, with the overa
        responsibilty resting with the State. In the State, there ar few muncipal health deparents
        and no county health deparnts. The Deparent of Public Health has regional and distrct
        health offcers who maita a liaison role with individual boards of health.

        The Deparent of Public Welfar is also locate in the Executive Offce of Human Services.
        There ar 63 local offces arund the State. Overa responsibilty rests with the commssioner.

        The Bureau of Adult Education is the responsible entity for SLIAG-fude educational
        progr.     It is locate in the Deparnt of Education which has ful jursdction for
        education at the local level.

        The Division of Housing is par of the Executive Ofce of Communities and Development.
        This Division is responsible for progrs to assist individuals and famies which requir
        housing and energy assistace.

                            FINDINGS AND RECOMMENDATIONS



Both FSA and Massachusetts were commtted to identiying problems and developing
innovative and effective solutions for them. Immediately following our on-site visits, FSA was
given an outline of the State concerns identified in this report.
FINDING: Since 
 1987 FSA has held national conferences and issued information to
States on implementing the SLIAG program.


                   The FSA held several national conferences beginning in 1987 to share
                   infonnation with States on SLIAG legislation , the implications for States, the
                   application process, and the documentation of costs.

                   The FSA also provided States with " Question and Answer" issuances and
                   demographic data from the Immgration and Naturalization Service (INS).

FINDING: Massachusetts established a structure to identify organizational and program
needs, and to adapt existing resources for SLIAG purposes.

                   The heads of each deparent involved in implementing SLIAG programs have
                   held many meetings with the Office for Refugees and Immigrants, and have
                   designated specific persons responsible for SLIAG implementation and
                   admistration. There was a goo working relationship among all parcipa ting
                   agencies.

                   The State s Executive Order Number 257 prevents agencies from requesting and
                   disseminating information on citizenship status unless required by Federal
                   statute. Questions on citizenship status have been removed from all applications
                   for services and benefits. The State has diected resources to obtain the
                   necessary progrm information and is moving to implement the SLIAG program
                   despite these restrctions.



FINDING: Massachusetts also took steps to document expenditures and control
disbursements.

                   Massachusetts has recently implemented the Management Account Reporting
                   System. This system provides for a unifonn reportng     capabilty and wil be
                   used by the Deparent of Education to document costs identifiable to specific
                   eligible legalized aliens. As par of this system , the Office for Refugees and
                   Immigrants can access the Deparment of Education s SLIAG account to
                   monitor distrbution of funds and identify any excess funds that may have
                   accumulated.
Neverteless, there were some fuds contrl vuerabilties. Findigs and reommndations
concerning these vulnerabilties follow under major topic aras.


PUBLIC ASSISTANCE

Assistance or Serve Activis

The Deparent of Public Welfar sought SUAG reimburment only for General Relief and
Medcaid. Contrtors/providers may supply employment and retring servces, day care
servces, and medcal car for the  unsureligible legalze alens. There were no new
progrs established beause of SLIAG.
Housing and related progr adstere by the Executive Offce for Communties and
Development ar include in the servces avaiable to eligible   legal
                                                            alens. The Fuel
Assistace Prgram curntly     supplements   Fedra appropritions.   To be   eligible, the alens
income must not excee 175 percent of the povert level. The Executive Ofce for
Communties and Development was experiencing diculty in determnig benefits,
espeialy in the low income home energy assistace progr. The usual proedure would be
to review the enti household, but if one or more individuals but not the tota famy unit falls
into the eligible legalze alen category, benefits for the individuals wi be diffcult to
determe.

The Gateway Cities Municipal Grats progr is also with the purew of ths offce. It
was a new program in FY 1987 and was fully operational in FY 1988. The tagets are all
immgrants and newcomers regardless of alen status.


The Executive Offce for Communities and Development has not fully implemented the
SLIAG porton of its progr beause of insufcient gudace frm FSA.

Documentaton of Eligible Legalized Alien    Stas
Public assistace program wi use the same application proess for eligible legalze alens
as ar used for al individuals reuesting servces. Ths includes the usual social work
intervention and verication process. For General Relief, citizenship status is not requested,
but verication of State residency is perfonn In the Medcaid progr, a retractive match
search occurs before clai ar mad for eligible legalze alens; but there is not a "citin
field, which is par of the computer fIe.

The Deparent of Public Welfar has not established a fonnal system to identify individual
                                                                            discation
eligible legalize aliens due, in par, to the Executive Order s prohibition of
based on alen status.
                                                             '"                    :j. ;--   .."..." "
                                                              , c' "




Program Costs

The eligible legalize alens wi abide by the sam progr gu lines as other reipients.
Eligibilty for program servces wi be veried every six months. Vouchers for
reimburment of servces for eligible    legal  alens wi come into the State centry and
pass thugh normal edts and scns, with utization review a par of ths process.

Administratve Costs


The Deparent of Public Welfar has its own indit cost rate established by the U.
Deparent of Health and Human Servces (HS). For budget purses, the State estiate
adnistrative costs and the number of eligible legalze alens who would access servces.
Ths estiate was done beause there was no history on the population or a qualty control
sample frm which costs could be projecte As a benchmark, the           curnt
                                                                      legal resident
alens ' use rate was determed and a cost alocation formula use bas upon a percentage of
the case load. It was felt that the smal estited case load of eligible legalze alens did not
make it cost effcient to mod the present accountig system.

Drawdown of Funds and Cash Balanees

The Offce for Refugees and Imgrts          wi drw   SLIAG Fedra funds for public assistace
each quarer, with reimbursement being procsse       thugh the State treasurer s offce and
deposit   ditly to the State s genera fud. In effect, drwdown wi replace those State funds
alady expende      for SLIAG-relate servces.


PUBLIC HEALTH ASSISTANCE

Assistanee or Serve Activities

The Deparent of Public Health wi provide the followig public health assistace services:

               emergency medcal servces coodiation

               uncompensate car,

               community health centers,
               preventive denta car,
               famy health progrs,
               envionmenta health,
               health care qualty,
               alcohol and drg abuse prevention,
               AIS screenig   and tratment,
             immunizations,

             Healthy Star Program,

             handicapped childrn

             lead poisoning prevention,
             tuberculosis screening and tratment,
             sexually transmitted diseases screening and
             treatment , and
             Gateway Cities Municipal Grants.



The State had not established any new programs because of SLIAG funding. The Healthy
Star Program is the newest program and has existed since FY 1986. Although listed in the
public assistace porton of the State s SLIAG application, the program is within the
operations of the Deparent of Health.

All of the chronic care hospitals are State-owned and State-operated, and under the
Deparent of Public Health' s supervision. The intake workers in the Healthy Star      and the
handicapped childrens programs are State employees. The deparment contracts with the
Women , Infants, and Childrens Program; community health centers (private organizations);
alcohol and. drg programs; and family health centers to provide public health assistance
services. With regard to AIDS, the State provides outrach services and case management,
and contracts for residence and hospice car.

Documentation of Eligible Legalized Alien Status

The Deparent of Public Health has not established a formal system to identify individual
eligible legalized aliens because of the Executive Order that prohibits discrination because
of alien status. The deparment feels they need more guidace in establishing a mechanism to
retroactively identify the eligible legalized aliens.

Program Costs

Both State agencies and contractors/vendors are reimbursed after costs have been incurred,
without any advance funds being paid. Most contractors ar expected to report expenses on a
biweekly or monthly basis. Invoices ar submitted indicatig claied costs and ar reviewed
by audit deparment staff located at the executive level.

The Offce for Refugees and Immigrants wil drw SLIAG funds each quarer to the State
treasurer s offce. For SLIAG reimbursable services, deposits ar made directly to the State
general fund , since the services have been funded under the State s Appropriation Act. For
contracts with private vendors, requests for proposals wil be wrtten and wil be treated as a
          ' .. ' .
             -u
                     . -, '   .. .




local grant. A portion of the State s cost of such programs is reimbursed from SLIAG.
However, there are no service contracts or grants diectly attached to SLIAG funds.

FINDING: The FSA' s definition of public assistance includes some public health
assistance activities which created administrative and service delivery problems for
Massachusetts ' public health agencies.

If aprogr or service is considered public health, the population ratio method for
establishing costs can be used. However, where the public health progr is considered
public assistace, a new burden is imposed upon the public health agencies which must
develop and implement new procedures for identifying individual eligible legalized alens to
document costs. Severa progrms administered by the Deparent of Public Health and
Division of Housing ar considered public assistance progrs for SLIAG reimbursement
puroses. To satisfy the needs of the SLIAG application , programs within public health were
split between public health assistance and public assistance. Although this breakout is based
on Federal guidelines, the deparment feels that it is an arcial definition. Agency staff
offcials are also concerned that asking individuals about legal status wil seriously afect their
accessing public health available services.

RECOMMENDATION: The FSA should reconsider its position to classify certain public
health services as public assistance and make appropriate adjustments to this position.


Administrative Costs



The Deparent of Public Health has its own indiect cost rate established by the HHS.
Administrative costs for FY 1989 are expected to be 1.5 percent of tota expenses.

Reimbursement for public health administration wil be distrbuted in proporton to program
costs. Since there was no history on this population or a sampling conducted, the State
estimated the number of people who wil access the services as well as the administrative
costs.

Drawdown of Funds and Cash Balances

Quarerly, the Offce for Refugees and Imigrants wil draw SLIAG funds to the State
trasurer s office. For SLIAG public health services, reimbursement wil be deposited directly
to the State s general fund.
                                                                                                  . ' - :_ ' ~- ,,,




EDUCATION

Assistance or Service Activities

Educational activities wil center around adult education and fall under the jursdiction of the
Deparent of Education s Bureau of Adult Education. English as a Second Language classes
and citizenship classes wil be offered to eligible legalized aliens. No new programs have
been established, but there are plans to expand the existig programs and to negotiate
contrcts with new providers.


The majority of curnt services ar provided by contrctors. These include basic adult
education and kidergarn though grde 12 equivalent coures, coures in secondar
education leading to a Genera Equivalency Diploma, native language courses considered a
precuror to classes in English as a Second Language, and grants given to local school boards.
In addition , the deparent provides services and tutorig programs in correctional facilities,
but neither of these wil be claimed as par of the SLIAG progrm.

Documentation of Eligible Legalized Alien Status

The actual system to identify eligible legalized aliens had not been implemented as of the
review period because the Deparent of Education had not yet issued its request for
proposals for SLIAG- funded classes. The bureau indicated that it is waiting to receive
guidance as' to what system wil be acceptable. Adaptation of the currnt enrollment system
wil be made by checking alien card numbers and adding pertnent questions at intake.


In the absence of an overal list of eligible legalized aliens, contrcts wil be made with
vendors on " good faith" using application projections from a statewide data base. Moreover,
the currnt refugee policy is bound by the Executive Order coverin g aricles on
nondiscrination which prevents agencies from requesting and disseminating information on
citizenship status unless required by Federal statute. All applications in use have these
questions deleted. Therefore, education agencies also have not established a formal system to
identify individual eligible legalized aliens. The Deparment of Education , however, feels that
it wil be able to document outcomes through its performnce- based contracts. The overall
accounting system to monitor the accounts for all the programs has not been finalized.

Massachusetts has relied almost entirely on service population estimates provided by the
Immgration and Naturalization Service, the U. S. Deparent of Health and Human Services,
qualified designated entities, and unserved number estimates. As a resident of Massachusetts,
the seasonal agrcultural worker wil be eligible for all services.

Program Costs

The Deparent of Education had not established guidelines for identifying eligible legalized
aliens and determining program costs.
             ..-.   - ..                                                ".




Administrative Costs

The Deparent of Education s indiect cost rate is 10 percent and was established by the
Deparent of Education. The guidelines for determning actual admnistrative and program
costs have not been fmalized. It is anticipated that the bureau wil use a performance- based
formula in contracting with providers.

The Deparent of Education had stated that its actual admistrative costs for the education
progrs wil far exceed the 1.5 percent ceilng permtted under SLIAG.
Drawdown of Funds and Cash Balances

Based on previous experience with education contractors, cash advances ar an uncommon
practice. Community-based organizations might request an advance, but it would be a
minimal advance payment In discussions, potential vendors revealed that advanced funds
would be needed for publicity.

The accounting system wil not have to be moded. The curent Massachusetts Management
Account Reportng System is an effcient and unifonn reportng system. The decision as to
whether the Office of Refugees and Immigrants or the Deparent of Education wil draw
education-related SLIAG funds into the State trasurr s office has not been made. The funds
wil subsequently be transferred into an account in the Deparent of Education. Since
educational programs do not have

State-appropriated funds, SLIAG funding must be available up front to allow the Bureau to
spend on progr activities.

The automated account in the comptroller s offce allows the Offce for Refugees and
Immgrnts to monitor balances by accessing the account with the Office of Human Services
special code. Allocations which are not spent for educational programs would raise questions
about the need of the service or its low enrollment.


CROSSCUTTING ISSUES

FINDING: Conflicting interpretations of the terms "public charge          and "permanently
residing under color of law " have caused uncertainties for aliens as to what services they
are entitled to receive without fear of deportation.

The single point of contact agency indicated that varous interpretations and a great deal of
confusion had centered around the meaning of " public charge. " Not having a clear
understanding of " public charge " places the single point of contact agency or the local
staff- level person at a disadvantage and may jeopardize the individual' s status as an eligible
legalized alien.
Also, the definition of "permanently residing under color of law " was confusing to the
agencies. This category is open to interpretation and is also confusing to eligibilty workers,
because varous programs may treat this definition differently.

RECOMMENDATION: The FSA and the INS should further clarify what is meant
 public charge " and "permanently residing under color of law, " and widely disseminate
this information to aliens who have raised concerns about their resident status.


FINDING: The FSA application review process created a number of signifcant problems
for Massachusetts. Also, the FSA's application review process interfered    with the State
 ability to plan for services.


             Delay in FSA issuing the implementing regulation resulted in the State
             inabilty to properly plan for SLIAG.



             Numerous policy misinterpretations and disagreements resulted because FSA
             did not provide definitive wrtten instrctions to assist Massachusetts in
             understanding SLIAG application requirements.

            . The time frames were too short for submitting the initial SLIAG application
              review and comment , and revisions of the application.

             Implementing SLIAG-funded programs was delayed because of a significant
             delay in notifying Massachusetts of the grnt award.

             No formal appeals process exists if progrms or costs ar    denied in   the first level
             review.



Accordig to final regulations published Marh 10, 1988, States had to submit the FY 1988
application no later than May 16, 1988. Revisions to the application had to be submitted by
July 1 , 1988, and the FY 1989 application had to be submitted no later than July 15, 1988.
Massachusetts submitted its first application on May 12 , 1988, and a revised application on
June 14 , 1988, which was approved on June 23, 1988. At the time of the review in August
1988, the grant funding had not been awarded. This delay parcularly impacted educational
progrs since Massachusetts had not allocated State funds for these programs up front.
                     .. '   ',   ."   ,:,.   :"' .   "'-




RECOMMENDATION: The FSA should make its application and grant award process
more orderly. Specifcally, FSA should


             provide definitive wrtten instrctions on the SLIAG application requirments
             and establish a dialogue with Massachusetts on SLIAG policy, compliance, and
             reportng issues to minimize the confusion that occured in the initial application
             process;

             ensur that sufficient time is allotted to the application process including
             Massachusetts ' initial application, FSA' s review and formal comment,
             Massachusetts ' consideration of FSA comments and negotiation of disputes, and
             its submission of the revised application for FSA approval;

             develop an appeals process to use if programs or costs associated with providing
             services are denied in the initial application process; and

             revise the grant award process for approved applications so that the notice of
             grant award reaches Massachusetts prior to the beginning of the fiscal year.


FINDING: At the time of the inspection, Massachusetts had not received formal guidelines
from FSA on determining and claiming SUAG administrative costs, and Massachusetts
had not developed methods for determining                  and documenting these costs.

The State Deparments of Public Welfare and Public Health, as well as the Bureau of Adult
Education , recognize the need for capturng admnistrtive costs. However, as of the time of
the review, they had not developed methodologies to do this.

The agencies indicated that there is a need for fonnal guidelines dealing with acceptable
methods of documenting admnistrative costs. The agencies felt that adequate guidelines did
not exist for them to determne alowable SLIAG admnistrative activities.

However, Massachusetts agencies must recognize that there are limits on the diections that
FSA can provide. Guidelines must be flexible enough to accommodate varations in State
systems and internal processes. Ultimately, Massachusetts, as the grantee, is responsible for
developing and implementing SLIAG program activities, and for documenting administrative
costs and expenditures.

RECOMMENDATION: The FSA should issue written guidelines for determining and
claiming administrative costs. Also, Massachusetts should develop methodsfor determining
and documenting these costs.
FINDING: The State Departments of Public Welfare and Public Health and the Bureau of
Adult Education had not established methods to document costs for    services and benefits to
individual eligible legalized aliens.

Although each agency realzes the importance of determning eligible legalized alen status at
intake, the curent philosophy of Massachusetts is to serve al those who qualfy for the
services requested. This philosophy is reinforced by the curent Executive Order which
prohibits discrimiation against State residents because of alien status. Because of this
Executive Order and some progrs being shifted to other agencies for SLIAG purposes, the
agencies had not developed a system to document costs for services and benefits to individual
eligible legalized aliens. However, the Executive Order s arcle on nondiscrimination does
contain a provision allowing citizenship information to be requested for Federal purposes.

RECOMMENDATION: The State Departments of Public Welfare and Public Health and
the Bureau of Adult Education should develop a process or methodology to identify and
document costs for services and benefits to individual eligible legalized aliens.
                                      . ' ' . - . .."




                           OIG RESPONSE TO COMMENTS


 The FSA and the Commonwealth of Masachusett both commente on the drt report.

 The FSA

 The FSA has generaly    agr   with the OIG report fidigs and reommendations. The FSA
 has taen a number of steps to improve implementation of the SLIAG progr includig
 claryig program policies and prours, as well as gudace on establishig and
 documentig admstrative and progr costs.

  The FSA questioned the statement that the new population would signifcantly increas public
  assistace and public health assistace servces. Early estiates indicate that large numbers
I of alens would qualy to access the SLIAG progr. The report        reogn        that inonnation
  obtaned durg the review determned that substatial incrases in workload and
  expenditus could occur in these aras as well as in education. However, we understad from
  reent discussions with States ' offcials that demand for services nationaly is falg behid
  earlier projections.

 The FSA' s   defition of public assistace include        public health activities which crated
                                                        some
 adstrative and servce delivery problems for Masachusett ' public health agencies. The
 OIG recommended that FSA reonsider ths position. The FSA replied that they se ths
 priary as an issue of cost identication and that they wi work with the States to develop
 method of documentig costs which ar consistent with FSA' s responsibilties as stewards of
 public funds. We believe that FSA' s actions to identiy alternative method is responsive to
 our concerns.

 We contiue to believe that a strct interpretation which permts public health costs to be
  clai    only for specifc eligible legalze alens is burdensome to the States and, in many
 cass, would reuir considerable revisions to the States ' system or statutory requirments.
 However, we do agr that FSA' s use of alternative systems, such as the Cost Documentation
 System and a revised population ratio method system which reflects usage, would be a
 positive effort to enhance cost effectiveness without reuirg States to develop new systems
 or make considerable revisions to present systems. The population ratio method could be
 revised to consider not only eligible legalize aliens in the servce population, but use of those
 services by the eligible legalze alien population bas on infonntion alady obtaned from
  progr experience. Where appropriate, other alteatives might be use        which would
  produce a more effcient system for the States and     adsscongrssional intent that the    States

  would not be required to establish new or elaborate systems.

  We reognze FSA' s    effort in cooperation with the INS to assist the States in learing   more
  about the INS policy on public charge issues.
                                 . .                        :. ,




We report that no    for appeals proess exists if progr costs        ar denied in the fIrst level
review. We agree with FSA'     s  statement that the Grat Appeals Board dos have jursidiction
over matters for witholdig and repayment of SLIG fuds. However, it was the States
concern that an effective appeals mechansm be in plac for issues involvig      progr
costs at the fIrst level of FSA' s review in the application pross.

The FSA mad numrous comments to clar            cert mattrs of fact, policy, or procedur.
We have include    these commnts verbati in Appendi

The Commonwealh of Massaehusett

The State took exception to may of the statements    ma   in the GIG report Their comments
are include verbati in Appendi C. Neverteless, since the           ti
                                                                   of the on-site review, the
State has taen signcant steps to effectively implement the SLIAG progr thugh
procedur and system changes. Masachusett, along with other States, has worked with INS
and HHS and made signcant effort to clary the "public chare" issue, which has been a
deterrent to eligible legalze alens in accessing servces.

The State also clared   severa   policy and proedur  aras as well as its organational
strctue descrbe in the drt       report We have   mad some modcations in the report based
on their comments.
      .'
  . .. ' . , '




 APPENDIX A



GOOD PRACTICES

A number of practices have been identified that other States could share.

     Massachusetts has implemented a new unifonn reportng system for education progrs.
     Ths system appear effcient and wil provide the basis from which costs can be captured
     for eligible legalizd aliens, and reports submitted timely.


     The Offce for Refugees and Immgrts has developed a methodology of monitoring
     funds allottd to the Deparent of Education. An automated account in the comp­
     trller s offce permts the Offce for Refugees and   Imgrts    to access the Deparent
     of Education s SLIAG account with an Offce of Human Services ' special code. This
     process permts the Offce for Refugees and Immgrants to determne if SLIAG funds are
     being disbursed as planned or if excesses may have accumulated.


     The Offce for Refugees and Immgrts took the initiatve to hold numerous meetings
     with heads of involved State deparents. This faciltated effective communications and
     education toward implementation and dissemination of program provisions. The
     deparents ' assignment of designated staf to work with the Deparent for Refugees
     and Imgrants also was an important step.
              APPENDIX B



FAMIL Y SUPPORT ADMINISTRATION'S COMMENTS

.. ..w..,
                                                                                , -' ;' .' '. .              -.~~~
                                                                                                               .. ,
-.-.
                       DEPARTMENT OF HEALTH & HUMAN SERVICES	                                                   mily Support Administration



                        September 22 t 1989	                                                                   Memorandum
            Dilte:      Acting Assistant Secretary
                          for Family Support
            From:
                        OIG Draft Report: Implementation of the State Legalization
                        Impact Assistance Grants Unde the Immigration Reform and
            Subject:    Control Act of 1986 - State of Massachusetts (OAI-07-88­
                        00447)
            To:	        Richard P. Kusserow
                        Inspector General

                        Attached are the Family Support Administration comments on

                        the above report.      Many of our comments are technical 


                        nature due to the complexity of the legislation and the

                        fact that the SLIAG program was very new at the time of the

                        review.
                        We appreciate the assistance and cooperation we have
                        received from you in response to our request to conduct this
                        round of reviews of the SLIAG program. The reports we
                        received are very useful to us in understanding how States
                        are impl emen Eing the program.
                                                                                                  t.
                                                                                                       I ,

                                                                                                       ' L-.
 .v.
                                                                                                       'f l ' A
                                                                                                       0(/




                                                                          Cal erine Bertini
                         Attachment
                                       -.          .. ..




                       OIG DRA REPORT:
   Implementation of the state Legalization Impact Assistance

                              Grants
     Under the Immigration Reform and Control Act of 1986:

                          MASACHSE'S

       The Family Support Administration'   s comments are divided
into three sections: Comments   on background information and
other narrative material that does not relate directly to - the
draft report' s findings, co ents on the findings, and responses
to the draft report' s recommendations.


Narrative

       Page 1 (Background) -- The draft report says, "This new

population will increase the demand for state public assistance

and public health assistance services significantly.     The draft

report isn't clear whose conclusion this is . or upon what data and

analysis the conclusion is based. The final report should

clarify these points.



       In the course of implementing SLIAG, we have di scovered
that neither state and local public health programs nor, with few
exceptions, public assistance programs, inquire about legal
status. This suggests that at least some aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
health assistance services. Preliminary cost data from states
suggests that newly legalized aliens are accessing public
assistance services at rates far lower than the general
population. There are indications t at a backlog of public

heal th needs existed and were identified during the medical

examinations required of all applicants for legalization.

However, there is no data to suggest that, other than this

temporary bulge in demand for public health services, newly

legalized aliens will generate a significant increase in demand

for public health assistance or public assistance services.

           . .




:::r;...                 Page 2 (Background) -- The draft report says, ns't:::' '; lt'1st

                 develop a method acceptable to FSA for determining
                 administrative costs. The final report should note that
                 several methods for determining the share of administrative
                 costs in ongoing programs that are allocable to SLIAG and which
                 are acceptable  a Driori are specified in the regulation at 45 CFR
                 402. 22 (b). The process of determining SLIAG administrative costs
                 (those costs incurred in administering the SLIAG grant itself),
                 like all costs associated with administering HHS grants, is
                 governed by 45 CFR Parts 74 and 92 and relevant OMB circulars.


                 Findinas

                 Finding:	 Since 1987, FSA has held national ' conferences        and
                                  issued information to States on im lementing the SLIAG
                                  program.

                 Comments: Since the OIG' s onsite visits ' in August 1988, we have
                           continued to provide assistance to States. . We have
                                  conducted several more workshops and meetinqs to assist
                                  States in implementation. In October 1988, we issued a
                                  compendium incorporating the extensive formal guidance
                                  previously provided to States on methods of cost
                                  documentation. We also have provided assistance to
                                  individual States in the form of correspondence,
                                  telephone consultation, and onsite technical
                                  assistance. We are in the process of conducting
                                  initial program reviews of the major States, and intend
                                  to visit selected other States as well.  We request
                                  that the final report reflect this continuing   dialoge
                                  wi th   states.
                  Finding:	       The FSA' s definition of public assistance includes some
                                  public health activities which creates administrative
                                  and service delivery problems for Massachusetts.
         '" .




i..
u . r;          '= question   how the definitions of public health and
         public assistance create service delivery problems for

         Massachusetts' public health agencies. By law and

          regulation, all programs or activities under both

          categories must be generally available. In practice,

          this means that SLIAG funds are available only to

          reimburse costs in ongoing, generally available
          programs. In most programs, immigration status is not
          a condition of eligibility. If the alien is eligible

           for services, he or she would receive those services

          regardless of whether they were reimbursed under SLIAG.

          The final report should clarify this point.



           The draft report notes that "there' is . no quarrel with
           the logic of FSA' s definition of p lic assistance

           versus public health, " but does not explain why the OIG
           recommends that FSA reverse its logic. The final-
           report should . explain      that the regulatory definitions
           of public assistance and public health assistance are

           based directly on IRCA.



            Programs of public assistance are defined as programs

            that " provide for cash, medical or other
            assistance.. .   9ned to meet the basic subsistence or
            health needs of individuals " (section 204 (j) (2) (A)

            emphasis added). Consistent with IRCA' s explicit

                inclusion of medical assistance under the public

                assistance category, FSA considers state or locally

                funded programs that provide medical treatment to needy

                individuals to be public assistance   program.

                IRCA defines programs of public health assistance as

                programs which " provide public health services,
                including immunizations for immunizable diseases,

                testing and treatment for tuberculosis and sexually-



                                        B-4

             .:;,                                                 ,. .




. !,. r. .
                    c diseases, and family planning services"
    (section 204 (j)     (3) (A) J. These statutory definitions
   and the legislative history indicate that Congress
   intended to allow certain traditional public health
   functions under the public health assistance category
   and medical assistance to the needy under the public
    assistance category. In implementing SLIAG, we have
   followed that statutory framework. We have defined
    public health assistance as, among other things,
    programs or activities that R are provided for the
    primary purpose of protecting the health of the
    general public" (45 CFR 402. 2 J . The scope of programs

    included in that regulatory definition of public health

    assistance goes far beyond the specific activities

    listed in IRCA.



    The public assistance/public health assistance
    categorization issue is primarily one of cost
    documentation requirements, not the allowability of
    costs associated with any particular health program.
     Under our regulation, states are allowed to use a
     single ratio of the numer of ELAs in the service
     population to the total service population to
     establish actual costs for public health assistance
     programs, as defined for SLIAG. Implicit in this
     method is the assumption that eligible legalized aliens
     will access programs in the same frequency and at the
     same cost as the general population. We do not believe

     this assumption to be appropriate for medical

     assistance programs that provide treatment to needy

     individuals. To the contrary, the information that we

      have to date indicates that allowing use of the

      population ratio method for these programs generally

      would overstate costs, dramatically in some cases.

      However, we would be willing to allow use of the

                              ;\::'.




           popul3.'      1;            0- " :d:hod for any program for which there
           is an 
    emDirical basis to indicate that doing so would

           not overstate costs.
           FSA realizes that many public assistance and public
           heal th assistance programs do not routinely collect
           information on immigration status but has found that
           these programs do collect social security numers.
           That is why we funded and devoted substantial staff
           resources to developing a system that will match the
           social security numers of program participants with
           those of newly legalized aliens. This system gives
           states information on the numer of newly legalized
           aliens participating in a program and" the cost of
           services to them. It               is now available and allows
           states to establish costs for FY 1988 as well as
           current and future years. Recently, we sent state
           SLIAG Single Points of Contact suggestions for other
           possible methods for establishing costs. None of these
           al ternati ve methods requires setting up new
           administrative mechanisms or checking the status of all
           program participants.


           We will continue to work closely with Massachusetts to
           develop methodologies to document costs for all
           programs in its approved               applications .

FL,ding:   The FSA application review process created a numer                  of
           significant problems for Massachusetts. Also, the
           FSA' s application review process interfered with the
           state' s ability to plan for services.
Comments: The draft report says that the time period for

            submission, review, revision and approval of the

            initial application was too short. We agree that it

. ..                                     -' ::'.    ::.:,?                                "'




                         have been '                         .., have had a longer period
                  of time between the publication of the final regulation
                  and the deadline for submission and approval of FY
                  1988 and FY 1989 applications. However, the final
                  report should note that, because of the way IRCA set up
                  the allocation formula, one ' maj or reason for the
                  compressed timeframe was that we could not award funds
                  to any State until all statesI applications had been
                  approved. In order for us to                 run the allocation
                  formula, which IRCA requires to include estimates of
                  costs, we must have approved estimates for all states
                  before we can calculate state I s allocations.

                  The draft report says that '" numerous                policy
                  misinterpretations and disagreements resulted because
                  FSA did not provide definitive written instructions or
                  requirements. "      Had there been           more time, we would have
                  . communicated more extensively '            in writing.       Our current
                  practice is to communicate in writing on all
                  substantive issues regarding state applications,
                  amendments, and end-of- year               reports.
                  The report says that no formal appeals process exists
                  if programs or costs are denied. The Grant Appeals
                  Board has jurisdiction over issues related to the
                  wi tholding and repayment of funds. For other matters,
                  the State may follow normal procedures for disagreeing
                  with an aqency findinq.

       indinq:	   At the time of the inspection, the Commonwealth of
                  Massachusetts had only informal guidelines from FSA on
                  determininq and claiminq SLIAG administrative costs,
                   and Massachusetts had not developed methods for
                  determining and documenting these costs.
         ..




C"D'r.        ':s:	   Several metb,("   for detE-,:'" '   lC' :-   ' ..hare
                      administrative costs in ongoing programs that are

                      allocable to SLIAG and which are acceptable 	 a Driori

                      are specified in the regulation at 45 CFR 402. 22 (b) .
                      Addi tional guidance is offered in the manual
                      "Establishing and Documenting Actual Costs, " October
                      1988, Modules 8 and 9. The process of determining
                      SLIAG administrative costs, like all costs associated

                      with administering HHS qrants, is qoverned by 45 CFR

                      Parts 74 and 92 and relevant OMB circulars.



                      We would like to note that this comment applies to the
                      draft report' s discussion under public assistance
                      administrative costs and public health assistance
                      administrative costs. We aqree wi    the draft report'
                      assertion that    " (UJ 1 timately Massachusetts, as the
                      qrantee, is responsible     for... fiscal docuentation of
                      costs and expenditures.


Recommendations

Recommendation:  The FSA should reconsider its position to
classify certain public health services as public assistance and

make appropri                 adjustments to this position.



Response:	            As discussed above, the primary issue relatinq to the
                      definitions of public assistance and public health
                      assistance is one of cost docuentation . States would
                      like to use the population ratio method for all
                      proqrams run by their health        departents.
                                                                 The final
                      report should clarify whether the OIG is recommendinq
                      that we allow use of the population ratio in proqrams
                      where, as discussed above, its use would likely
                      overstate actual costs.
   :' ..                                       ';g




             We .. .   ;tieve that using . ,         populat?f..   i":
                                                                         ,?-t- hod   nr all
             programs run by state health departments would be

             inconsistent with our responsibility to exercise fiscal

             responsibilities in establishing actual costs,

             especially where ELAs are a small percentage of a
             State' s population or for programs that few ELAs
             access. We will continue to work with states to ensure
             that a method is available to allow them to establish

             actual costs for each program in their approved
             applications, consistent with our responsibilities as
             stewards of public         funds.

Recommendation: The FSA and the Immigration and Naturalization

Service (INS)       should further clarify what is ' meant by " public
charge" and      " permanently residing under colo of law" : and widely
disseminate this information to the alien population who have

raised concerns about its resident status.



Response:	   Under IRCA and the Immigration and Nationality Act, the
              INS alone is responsible for determining whether
              individuals are likely to become public charges. FSA
              cannot establish policy on this issue. Nor can FSA
              disseminate information directly to the alien
              population.  INS' is precluded by IRCA from providing
              names and addresses of eligible legalized aliens to
              outside agencies.



              However, we agree that it is important that all
              concerned know INS policy on the public charge                           issue.
              INS representatives have made presentations at
              virtually all of our workshops and conferences.
              these meetings, states have been able to ask questions
              and receive direct information from the INS. We have

              communicated to states all information provided to us

              by INS on this and other pertinent issues, and will

.)





                   f--.   tiI?!   , 0;
                                         ; t
                                               t'l. icy of dissem:i ,   ,.'t. ing   any :t'   !1t
                   information that we                 receive.


      Recommendation:             The FSA grant process should be made more
      orderly.

      Response:	   The draft report' s recommendation refers to the FSA
                   grant process, but the specifics indicate that it is
                   referring to the SLIAG application and grant award
                   process. The language of the recommendation should be
                   more specific.


                   We agree that the application process should be

                   conducted in a more orderly fashio than was the case

                   for the initial submissions. As the draft report

                   indicates, the timeframes for the FY 1988 and FY 1989

                   application processes were necessarily short. 

                   effect, the states and we had to complete two

                   application processes in less than a year. . We do not

                   expect similar problems for the FY 1990 and FY 1991

                   application processes.



                   To ensure that states have adequate time to prepare

                   their FY 1990 applications based on empirical data, we

                   have extended the deadline from July 15 to October 

                   Additionally, we have encouraged states to submit as

                   early as possible any new programs, questions, or

                   issues, and have advised them that they may submit all

                   or portions of their applications at any time.



                   In order to reduce the possibility of

                   misunderstanding, we have advised states that we will

                   communicate all substantive questions and concerns on

                   their FY 1990 applications in writing, as was done for


                                                           B..10
                                        , -   .. -




            States'   era\..   "".'1'                ::.:. We   issued     xt.ensive
            written guidance on the FY 1990 application process and

            the standards we will apply. The draft report also

            recommends that we develop an appeals process to use if
            programs or costs associated with providing services
            are denied in the initial application           . We         process.
            not believe such a process is necessary. The
            Department' s Grant Appeals Board has jurisdiction over
            cases involving the repayment or withholding of funds.
            Normal channels wi thin the Department are open to
            States that disagree with decisions made during the
            course of application             review.

Recommendation: The State Departents of                         PUlic Welfare       and
Pulic Health  and the Bureau of Adult Educat on should develop a
process or methodology to identify and do ument costs for

services and benefits to individual eligfble legalized aliens.



Response:   HHS has made a variety of options for tracking costs
            available to states. If it is not possible or cost

            effective for States to base their SLIAG related costs

            on an actual count of eligible legalized aliens

            accessing services, states may opt to use the Cost
            Documentation System, the population ratio method (for
            public health assistance), or statistical sampling, or
            the State may suggest alternative methods to HHS.
      APPENDIX C



MASSACHUSETTS' COMMENTS

,.             ..,

                                   The CommonwE.alth of Massachusetts

     l.'i;                             Executivs OffIce of Hum?;; Services

                                          Office For ReftJgses an:; Immi5'rcn:s

                                    Two Boyl    ton Street, 8oston lassacr, usetts 02116
                                                                          , r'




MICHAE.L. 5. DUKA:
             GOV5:RNOR
 PHILIP W. JOHNSTON                                                                                   AREA CODE: (6 t 7)
             5E:CRETARV                                                                                   727- 7883
       DANIEL M. LAM
              CIRE:C'rOR
                                                                             September 21 ,   1989


                  Mr. Richard P. Kusserow
                  Inspector Genera
                  Office of the Inspector Genera
                  Deparent of Health and Human Servces
                  Washington, D. C. 20201
                  Dear Mr. Kusserow:
                  Enclosed is our response to the draft inspection report entitled " Implementation of the State
                  Legalization Impact Assistace Grats under the Imgrtion Refonn and Control Act of
                   1986: Commonwealth of Massachusetts " issued by the Offce of the Inspector Genera (OIG)
                  in June, 1989. This report presented findings from the OIG' s visit to Massachusetts in July,
                 . 1988. The inspection was intended to be broad in scope; its purose was to identify potential
                  problems with SLIAG programs and to offer states general assistace at the beginning stages
                   of SLIG' implementation.
                  Unfortunately, the OIG review is of limited usefu1nes$ because it occured before the
                  Deparment of Health and Human Servces issued offcial policy guidace regarding the
                  claing of costs from SLIAG. Many o the ala fmdings result directly from this absence' of
                  a clearly defined federal policy or directive regarding the implementation of cost claing
                  methods. Since the tiIrc or the review , H:S poiicy gddace has been issued, Massachusetts
                  has received official HHS approval for prog:'a-specific methods to identify SLIAG-related
                  costs, and actual costs have been reported fer:he majority of these programs for Federal
                  Fiscal Year 1987 and 1988.
                  Further, t.'1e OrG drt report includes a number of specific findings and other statements
                  contaning errors of fact. We appreciate the opportnity to identify these errors, and to present
                  infonnation to clary the issues. We hope that you will incorprate this infonnation into :,'our
                  final report,
                   Please do not hesitate to call me if you have any qU
                                                                           Jstions. (\
                                                                          v Sincerely


                                                                      II            ' I


                                                                    1\\

                                                                           '-a."1iel M.
                                                                                              2)L

                                                                           uirec;:)r
                   Enclosure



                                                              C..
                        IASSACHUSETTS                COl\1MENTS
                         TO DTIAFT OIG REPORT ON
                          SLIAG IMPLEMENT A TION
                                         September. 1989


OIG Statement: Backeround (Executive Summary. "Oaee i)

. The /SUAGj payments also cover educational services designed to assist eligible

  legalized aliens to attain a satisfactory level of performnce in school and to achieve

  English language proficiency and citizenship skils necessary to become permnent

  residents.

Massachusetts Comment
. Uncer the Imgration Refonn and Control Act and SLIAG reguations, allow ble
  educational servces are much broader than this. States may pay for serces descrbed in
  the Adult Education Act delivered to eligible legalze alen       (E)      adults not enrlled in
  school, up to a specifed average dollar amount. For Federal Fiscal Years 1989 and 1990
  Massachusett has chosen to prioritize the use of         ts SLIAG funds to provide English as a
  Second Laguage (ESL)       and    Civics    classes designed to help ELA' s become permanent
  resident.



Descrimion    (7). 3)
. The Offce for Refugees and Immigrants has allocated 30% of select staf        positions to the
  SUAG program.

Comment
. After lengty discussions with Region I FSA staf,                 Refugees and
                                                           the Office for
    lffjgrants alocated certain percentages of central OR! executive and fiscal staff salares
    to SLIAG adnistration. in relation to the        tie
                                                   spent on SLIAG. Direct SLIAG program
    staf are fully   charged to the     grt.

Findir! (7). 3. also Exec. Summarv TJ.
. The FSA held several national conferences to share informtion with states on the

  documentation of costs. The FSA also provided states with " Question and Answer

     issuances and demographic datafrom the INS.


 Comment
 . OffIcial HHS policy regarding cost documentation methods was not furnished to States

   until October, 1988, long after the OIG visit. The Question and Answer issuance

   provided infon guidance only, and focussed on grant application procedures rather

   than cost claiming methodologies.




                                               c-z
.)





      Finding       (T?p. 12.               13.   also

      . The State s Executive Order                      Numer   257   prevents agencies from requesting information
        on citizenship status zmless required by Federal statute, Questions                      on citizenship statu
        have been removedfrom all applicationsfor services and benets.
      Comment
      . The Governor's Executive Order Number 257 prohibits employees or agents of the
        Commonwealth from asking progr applicants about their citienship or imgrtion
        status unless reuired by federa statute, regulation, or cour decsion. It does not
        supersede State statutes explicitly requig such inquires for        State           cert            progr.
        The policy is designed to prevent the creation of reguatory or procedura barers to
        access for progrs which do not have a legal eligibilty requiement based on citizenship
        or immgrtion statUs, and which would tend to discrminate agaist non- citizens in a
        varty of immgrtion statuses, as well as citizens who migh t appear or sound " foreign
        Progr      which do not have legal authorty to condition eligiblity for benefits on the
        grounds of citienship or imgrtion status have removed such questions from their
        applications.

        The Goveror s Legal Counsel has made a detemration that the Executive Order permts
        agencies to obtain immigrtion statUs informtion for cenan programs, as it is required
        by the Imgrtion Refonn and Control Act cratig                              SLIAG, and   the SLIAG regulations,
        in order to chum federal reimbursement.

        Massachusetts has worked closely with FSA to establish cost- claimig                         methods for
        progr which minimize the need to inquie into applicants' immgration                                 statUs, as this
        tends to discourage eligible applicants from using services which they need. Chief
        among these methods is the computerized Cost Doumentation System, operated under
        contrct by Manin Maretta Corporation , which counts the number ofELA' s using a
        program through matching Social Securty numbers.



      Finding (p.           4.   also iii
      . There arefund control vulnerabilties.

      Comment
      . Massachusetts strongly objects to this asserton. No specifc fund control vulnerabilties
        are identified anywhere in the report It is our belief that al funds administered by this
         office and other SLIAG parcipating                       agencies   are meticulously controlled,


      Finding        (D.

      . The Department of Public Welfare wil offer Ge1Ura! Relief Medicaid under specifc

        circumstances, homeless services, refugee reserrleT7nt, Supplemental Security income

        (551;, and employment and retraining services for ELAs.

      Comm!'nt
      . ELAs are not eligible for refugee resettlement progrs. Of the other progrms cited,
        Massachusetts has sought SLlAG reimbursement only for General Relief and Medicaid,
I)




     Descrimion (T). 5)
     . The Division of Housing is responsible for programs to assist individuals and familes
       that require energy and housing assistance. The Gateway Cities Municipal Grants
       program is also within the puriew of the Housing Division.

     Comment
     . The Executive Offce for Communties and Development (EOC) is responsible for these
       program. Housing and renta assistace program ar within EOCD' s Division of
       Housing Development Fuel Assistance is administered by the Division of
       Neighborhood and Economic Opportunity. The Gateway Cities Program is within the
       Division of Municipal Development



     Findine (T). 5)
     . The Departmnt of Public Welfare ha not established aforrl system to identify

       statu.
       individual ELAs due to the Executive Order s prohibition of discrimination based on alien


     Com'Tent
     . At the tie of the O G review , the Deparent of Public Welfare had not developed a fInal
       cost claimig methodol ogy for Genera Relief or Medcaid. The Deparent was waiting
       for FSA to issue guidelines for the CDS system.

       The Executive Order was not the obstacle to establishing aclaig    system. For
       example, documentation of a non-citizen applicant irrgrtion status is presented as
       pan of the Medcaid application process. However, the applicant s alen registration
       number does not appear as a field in the Deparent s client trackig system. The
       Deparent did not be :eve that revising its computer system to include such a field would
       be cost-effective in order to clai a very small amount of SLIAG reimbursement, when a
       system based on matChing Social Securty numbers (aleady in the computer        ) was
       being made available by HHS. At present, Massachusetts is utiizing CDS in order to
       determne costs of Medcaid ar.. Genera Relief assoiated with ELAs.


     Findin (T). 7. also iW
     . T FSA' s defnition of public assistance includes some public health assistance activities
       which created administrative an service delivery problems for Massachusetts ' public
       health agencies.
      Comment
      . For public assistance programs, SLIAG is solely a funding mechanism to reimburse
         states for servces provided to BLA' s in qualifying existing progrs. Consequently, the
        implementation of SLIAG in no way affected the actual delivery of servces to clients.
        FSA' s broad definition of public assistace, which included several programs
         traditionaly regarded as public health and delivere though the public health system,
        placed a heavy administrti-' e burden upon the State, and wil undoubtedy result in
         unreimbured SLIAG-related costs. A similar cae can be made for the impact on mental
         health services. We support the OIG recommendation on p. 8 that FSA reconsider its
        posi tion.





                                              C.;4
1 ' 





                                                         -4­


        10)    Descrimion (rY. 7)
               . For f Departmnt of Public Health SUAG-reimbv;rsable activities) contracts with private
                 vendrs, req   sts for proposals wil   be written and treated as a local grant.

               Comment
               . As stated in the drt repon s previous sentence, DPH services ar funded though the
                 State s appropriation act The Deparment establishes service contrcts for some
                 programs, paid by the State s appropriated funds. A ponion of the State s cost of such
                 progrs (including any contracts) is reimbured from SLlAG; however , there are no
                 servce contrcts or grants diectly attached to SLlAG funds.



        11)    Findine (p. 9)
               . The Departmnt of Education ha not implemented a system to identify ELAs as of the
                 review period. Adaptation of the current enrollment wil be made by checking alien card
                 numbers at intake. Current refugee policy is bound by the Executive Order covering
                 articles on nondscrimination which prevents agencies from req sting and disseminating
                 informtion on citizenship status.


               Comment
               . The Deparent       had not implemented a client trckig   systembecause it had not yet
                 issued its request for proposals for SLIAG- funded classes. As these classes were
                 designed explicitly for BLs, the Deparent was prepared to (and did) requie all
                 SLIG-funded program to record enrllees ' alen registrtion numbe. rs at intake. Agai,
                 as noted earlier, the Executive Order did not bar collecting such information, as it is
                 requir by federa regulation.




        12)    Descrimion (D. 9)

               . It is anticipated thot since admnistrative costs for the education programs are low, the

                  program wil be fully funded with    15%   of the grantfor administra!ive costs.

                Comment
                . To the contrar, from the begining the Deparment has stated that its actual admnistrative
                  costs for the education programs wil far exceed the 1.5% ceiling. Massachusetts has
                  joined may other states in seekig a chang in SLIAG to pennt a higher ceiling to reflect
                  actual costs.



         13)    Findine (D. 10. also un
                . Conflicting interpretations of the term "public charge " and "permanently residing under
                  the color of law " ha caused confusion an.ong immigrants as to what services the are
                  eligible to receive.

                Comment
                . The confusion stems directly from the absence of clear INS policy diectives regarding
                  these issues. This lack of clarty served as a deterrent to ELA' s in accessing services.
                  Along with many other States. Massachusetts has made significant effons to obtain
                  clarfication from INS and HHS on these terms and their application.
';' 





        14)   Findiml         (1)7),   12.   13.   also ii. iv)
              . The State Departnts of Public Welfare, Public Health and Education had not
                established methods to documnt costs for services and benefts provided to individual
                ELAs. Massachusetts should deelop methods for determining and docwnenting these
                costs.

              Comment
              . At the tie of the 01G visit in June 1988, no deparent had yet implemented specifc
                SLIAG cost claimig methodologies due to the lack of FSA policy directives noted
                above. However, the Depanent of Public Health had identied appropriate " public
                health" program for which to use the population ratio methodology, which does not
                  requie trckig               servce    costs to individual BL'
                  Both the Deparent of Public Heath and the Deparent of Public Welfare were
                  awaiting release of fmal proedures for the Cost Documentation System (CDS) for their
                   public assistace " program, which do require such individual trcking, CDS was not
                  ready for use unti July, 1989. The Deparent of Education did not begin its SLIAG-
                  funded progrs unti Jan. 1 , n89. From their inception, those program implemented
                  an individual ELA trckig system as specifed in the Deparent of Education s Request
                  for Proposal for SLIAG- funded ESL/Civics classes.

                  As of ths wrtig, Massachusetts has developed cost claiming methodologies for all
                  SLIAG-reimburable progrs and has worked closely with all impacted ag ncies to
                  ensure both accurcy and sensitivity.




        15)   Finding ('t.
 12)
               . At the time of the inspection, Massachuetts ha                   not received   forml guidelines from FSA
                   on determining and claiming SllAG administrative costs, and Massachusetts ha not
                   developed methods for determining and docwnenting these costs.

               Comment
               . Massachus:tt has had no problems in detennning or doc:.!1enting the costs of
                 adrrinisterig progr which are paraly or fully SLIAG- funded, nor in detennining or
                   documentig centr grt adnistrtion                      costs. The Commonwealth has comprehensive
                   and asppropriate systems in place.
                   Before drwig any SLIAG funds, Massachusetts established a separate account for
                   centr SLIAG adistrtion, and all costs are identiable by line item and are fully
                   auditable.

                   The 01G report misses the point here. The problem did not lie in our abilty to identify or
                   control administrtive costs. The problem was that absent FSA policy and decisions
                   aboUt each progr s cost                 claig
                                                      methodology, it was not possible to detennne what
                   ponion of ea:-h progr s admistrtive costs would re SLlAG-reimbursable.
i .

